No. 19-

Suprumr Ouurl uf thp Hnitril Stutru
UNITED STATES OF AMERICA ex rel.
MICHAEL RAY PERRY,
Petitioner
v.
HOOKER CREEK ASPHALT & PAVING, LLC,
OREGON MAINLINE PAVING,LLC, J.C. COMPTON
CONTRACTOR, INC., HAP TAYLOR & SONS, INC.,
KNIFE RIVER CORPORATION _ NORTHWEST, AND
CENTRAL OREGON REDI-MIX, LLC,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I
certify that the Petition for a Writ of Certiorari
contains 8527 words, excluding the parts of the
document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that
foregoing is true and correct. E
19,20t9.
ylhowe Road
nd, CA 94602
510 530 9060
jlfried@comcast.net
Counsel for Petitioners

